HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in Iowa,"(A-07-03-04014)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in Iowa," (A-07-03-04014)
June 24, 2003
Complete
Text of Report is available in PDF format (2.12 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to evaluate whether the Iowa Department
of Human Services (DHS) had established adequate accountability and internal controls
over the Medicaid drug rebate program.  We found that the DHS lacked sufficient
internal controls with regard to the Medicaid drug rebate program as required by
Federal rules and regulations.  Drug rebate receivables were perpetually understated
and it is likely that the DHS did not receive all drug rebates and interest on
disputed or late rebate payments due from manufacturers.  In addition, the
DHS did not have reasonable assurance that drug rebate balances and collections
reported to CMS were accurate.  Moreover, the lack of sufficient internal
controls increased the risk for fraud, waste, or abuse of drug rebate program funds.